Cumulative Quarterly ARRA Update (Sheet 1 of 2) Version 1.0
        Reporting OIG: Department of Transportation - OIG
    Reporting Period : Cumulative Through Quarter 3, FY 2014 (October 1, 2013 - September


                 Monetary Results ($)                       Fiscal Years 2009-2013           Fiscal Year 2014 Period-to-Date        Cumulative Since Fiscal Year 2009

Recoveries                                                                 $1,299,608.00                          $934,190.00                           $2,233,798.00


Forfeitures/Seizures                                                                 $0.00                        $752,520.00                             $752,520.00


Estimated Savings                                                            $750,000.00                                                                  $750,000.00


Questioned Costs                                                                     $0.00                                                                       $0.00


Unsupported Costs                                                                    $0.00                                                                       $0.00


Recommendations for Better Use of Funds                                              $0.00                                                                       $0.00



                    Work Products                           Fiscal Years 2009-2013           Fiscal Year 2014 Period-to-Date             Cumulative Since 2009

Complaints Received                                                                   485                                       8                                  493


Whistleblower Reprisal Allegations


 Received                                                                              12                                       2                                   14


 Accepted                                                                              12                                       2                                   14


Investigations


 Active - Open and Underway                                                            55                                      42


 Convictions, Settlements, Judgments                                                    7                                       1                                       8


 ARRA $ Loss Associated with Convictions and Other
                                                                            $1,299,608.00                          $934,190.00                           $2,233,798.00
 Prosecutive Actions


Audits/Inspections/Evaluations/Reviews


 In Process - Initiated and Underway                                                    4                                       1


 Completed Final Published Work Products                                               29                                       2                                   31


 Completed Unpublished Work Products                                                    0                                                                               0


 Quality Control Reviews (QCRs) Issued                                                  0                                                                               0


Training/Outreach Sessions Provided                                                   486                                                                          486
Cumulative Quarterly ARRA Update (Sheet 1 of 2) Version 1.0
    Reporting OIG: Department of Transportation - OIG

  Reporting Period Cumulative Through Quarter 3, FY 2014 (October 1, 2013 - September 30, 2014)




      No.                             DETAILS OF SIGNIFICANT ACTIVITIES (Completed/On-Going During the Reporting Period)




       1



       2



       3



       4



       5



       6



       7



       8



       9



      10
